MEMORANDUM
DATE:          February 26, 1998

TO:            Judith Johnson
               Acting Assistant Secretary
               for Elementary and Secondary Education


FROM:          Richard J. Dowd
               Regional Inspector General
               for Audit, Chicago, Illinois


SUBJECT: Review of the Detroit Public Schools’ Year 2000 Readiness Plans, Control
               Number: A05-90021


Attached is our Management Information Report that informs you of the results of our review of
Detroit Public Schools’[DPS] Year 2000 readiness plans. Our objective was to determine if DPS
management has developed a plan to (1) achieve year 2000 compliance for its computer systems,
and (2) monitor the implementation. We also were ensuring that DPS was successfully meeting
milestones for each Year 2000 phase (awareness, assessment, renovation, validation, and
implementation).

Our review of the DPS’Year 2000 readiness plans indicates that the entity has sufficient controls
in place to reasonably ensure it is making satisfactory progress in its Year 2000 efforts. We
believe that the DPS’Year 2000 efforts are satisfactory because the entity exhibits acceptable
performance in all key phases of the Year 2000 project management process.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued by the
Office of Inspector General are available, if requested, to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act. Copies of this
report have been provided to the offices shown on the distribution list enclosed in the report.

If you have any questions concerning this report, please call me at 312-886-8647.


ATTACHMENT
  Review of Detroit Public Schools’Year 2000 Readiness Plans




              MANAGEMENT INFORMATION REPORT




                                     Control Number A05-90021
                                          February 1999




Our mission is to promote the efficient                   U.S. Department of Education
and effective use of taxpayer dollars                     Office of Inspector General
in support of American education                          Chicago, IL
                             NOTICE

Statements that management practices need improvement, as well as other
 conclusions and recommendations in this report, represent the opinions of
 the Office of Inspector General. Determination of corrective action to be
taken will be made by appropriate Department of Education officials. This
 report may be released to members of the press and general public under
                      the Freedom of Information Act.
ED OIG Management Information Report ACN A05-90021
Review of Detroit Public Schools’Year 2000 Readiness Plans

                               Executive Summary
Our review of the Detroit Public Schools’[DPS] Year 2000 readiness plans indicates that the
entity appears to have sufficient controls in place to reasonably ensure it is making satisfactory
progress in its Year 2000 efforts. We believe that DPS’Year 2000 efforts are satisfactory,
because the entity exhibits acceptable performance in all key phases of the Year 2000 project
management process (See Appendix for a description of acceptable performance). However,
DPS has not established an overall organizational contingency plan. DPS recognizes that it must
have a contingency plan in the event of a Year 2000-induced system failure. DPS plans to hire a
vendor shortly to complete a contingency plan which will include a disaster recovery plan and a
business resumption plan. If it does not develop a contingency plan, DPS could experience severe
adverse effects in the event of a system failure related to a Year 2000 problem.

The U.S. Department of Education (ED) has a responsibility to ensure that all of its computer
systems and the interface between them and the systems of its trading partners are ready to handle
data that includes dates both before and after January 1, 2000. ED has issued various publications
to reinforce the seriousness of Year 2000 compliance and the critical milestone dates for each of
the five phases set forth by the General Accounting Office (GAO).

We conducted our on-site fieldwork at DPS in Detroit, Michigan from January 4 through 15,
1999. We examined documentation supporting DPS’progress for each phase of the Year 2000
project. We learned that DPS has already completed the awareness and assessment phases for all
five of its Year 2000 projects. In addition, DPS has already completed the renovation, validation,
and implementation phases for part of one of its Year 2000 projects and the renovation phase for
another.

DPS established a Year 2000 steering committee in November 1997 and through its Board of
Education, upgraded its computer system and hired five contractors to ensure all electronic
systems are Year 2000 compliant. In addition, DPS hired an outside firm to oversee and manage
its Year 2000 projects. DPS assigned internal Project Managers responsibility for coordinating
the projects and ensuring they are completed in accordance with the contracts.

DPS elected to use a process called Windowing to make its systems Year 2000 compliant.
Windowing involves modifying the computer logic so the current two digit date field can still be
used into the Year 2000. It modifies the program logic to interpret dates based on a date
window.

To ensure its electronic systems are Year 2000 compliant, DPS has three projects to convert and
replace current mission critical software, one of which includes purchasing and installing new
hardware. In addition, DPS has one project to renovate all personal computers using a
commercially available renovation tool and another to identify and ensure all electronic systems
with embedded micro chips are Year 2000 compliant.




                                             Page 1
ED OIG Management Information Report ACN A05-90021
Review of Detroit Public Schools’Year 2000 Readiness Plans

Background                  DPS, Michigan’s largest school district, has 169 elementary
                            schools, 44 middle schools, 28 high schools, and 20 other centers
                            of learning. The DPS participated in 14 Federal programs, 11
                            programs funded through the Michigan Department of Education,
                            Michigan Job Commissions, and Wayne County Intermediate
                            School District and 3 programs funded directly by ED. These
                            agencies awarded DPS $116,760,806 during the 1997-98 award
                            year.

                            ED is in the process of ensuring that all of its computer systems and
                            the interface between them and the systems of its trading partners
                            are Year 2000 compliant. Year 2000 compliance (or readiness)
                            refers to the capability of a product to correctly process, provide,
                            and/or receive data containing dates from, into, and between the
                            20th and 21st centuries. The system’s ability to accurately process
                            date/time data is crucial to continuing a business’normal operations
                            beyond the turn of the century. Failure to address this issue could
                            result in a system’s erroneous execution or the inability to execute
                            at all.

                            On October 6, 1998 the ED Deputy Secretary issued an Advisory
                            to Federal Grantees on Responsibility to Address the Year 2000
                            Issue to entities receiving ED funding. The advisory’s purpose was
                            to reinforce the importance of addressing the Year 2000 issue
                            through aggressive strategies and action plans. In addition, in
                            November 1998 ED issued a Year 2000 Readiness Kit which is a
                            compilation of Year 2000 resources for schools, colleges and
                            universities.


DPS’Year 2000               DPS has established a Year 2000 project team that combines
Projects                    internal project managers, internal computer facilities, and external
                            contractors or vendors. According to DPS officials, the Year 2000
                            project grew out of previous plans to replace or update hardware
                            and software. These plans were previously delayed due to budget
                            constraints.

                            In November, 1997 DPS established a Year 2000 steering
                            committee. With funds committed through its Board of Education,
                            DPS purchased a new computer system to replace the old one that
                            it had outgrown. Based on the results of a Year 2000 assessment
                            completed in March 1998, and the previously delayed plans, the
                            Board of Education approved contracts with outside vendors for
                            five Year 2000 projects. In addition, DPS hired an outside firm to
                            oversee its Year 2000 project. For each of its projects, DPS
                            designated in-house personnel as Project Managers. The Project

                                           Page 2
ED OIG Management Information Report ACN A05-90021
Review of Detroit Public Schools’Year 2000 Readiness Plans

                            Managers are responsible for coordinating the projects and ensuring
                            they are completed in accordance with the contracts.

                            The five projects to make DPS’electronic systems Year 2000
                            compliant include:

                            PROJECT 1:     A project to replace the current payroll and
                                           personnel systems with a Year 2000 compliant
                                           version of PeopleSoft. This is a mission critical
                                           software.

                            PROJECT 2:     A project to convert the Comprehensive Information
                                           Management for Schools [CIMS] applications and
                                           non-CIMS applications. Two CIMS applications,
                                           Student Management System and Financial
                                           Management System, are mission critical software.

                            PROJECT 3:     A project to replace the current food service
                                           application with a Year 2000 compliant version.
                                           This project includes purchasing and installing new
                                           hardware. This is a mission critical software.

                            PROJECT 4:     A project to identify and renovate all personal
                                           computers using the commercially available
                                           renovation tool PC Fix 2000.

                            PROJECT 5:     A project to identify and ensure all equipment and
                                           communication systems with embedded micro chips
                                           are Year 2000 compliant.

                            Without these system changes, the CIMS financial system would
                            fail July 1, 1999 when the budget process begins for the Year 2000.
                            Therefore, DPS determined that all mission critical systems projects
                            needed to be completed by July 1, 1999. The other projects have
                            to be completed prior to December 31, 1999.


                                   Year 2000 Phases

Contingency                 Contingency planning for a Year 2000 project addresses the steps
Planning                    that would be taken to ensure the continuity of an entity’s core
                            business processes in the event of a Year 2000-induced system
                            failure. DPS has not established an overall organizational
                            contingency plan. However, DPS recognizes that its contingency
                            planning must be more than just a disaster recovery plan or a


                                           Page 3
ED OIG Management Information Report ACN A05-90021
Review of Detroit Public Schools’Year 2000 Readiness Plans

                            business resumption plan. DPS plans on hiring a contractor to
                            develop an overall contingency plan. Based on our review, we
                            found nothing that would lead us to believe DPS cannot complete
                            the contingency planning by the Year 2000. Without a contingency
                            plan, DPS could experience severe adverse effects in the event of a
                            system failure related to a Year 2000 problem.

Awareness                   During the awareness phase, the school district should define the
                            Year 2000 problem, gain executive level support and sponsorship,
                            establish a Year 2000 program team, develop an overall strategy,
                            and ensure that everyone in the organization is fully aware of the
                            issue. We found that (1) DPS defined Year 2000 readiness; (2) the
                            Board of Education has fully supported the Year 2000 effort; (3)
                            DPS has developed an organization to oversee the Year 2000
                            efforts and has an overall strategy; and (4) DPS continues to make
                            others aware of its Year 2000 efforts. To further awareness among
                            its employees and the community, DPS maintains a Year 2000 web
                            site. Employees are encouraged to visit the web site through a
                            message on the DPS’computer system main menu which is
                            accessed during the work day. In addition, DPS printed and
                            distributed posters to the schools to raise student awareness of the
                            Year 2000 issues. DPS has fully completed the awareness phase as
                            defined in the GAO Year 2000 guidance.

Assessment                  During the assessment phase, the school district should assess the
                            Year 2000 impact on the enterprise, identify core business areas
                            and processes, inventory and analyze systems supporting the core
                            business areas, and prioritize their conversion or replacement. This
                            phase also directs the school district to develop contingency plans
                            to handle data exchange issues as well as identify and secure the
                            necessary resources. Though DPS believes all its systems need to
                            be fully operational, it has identified three projects that are critical
                            to operations.

                            DPS hired an outside firm to complete an assessment with the goal
                            to “identify risk exposure and to recommend solutions for potential
                            computer and equipment problems caused by the upcoming
                            millennium change.” The assessment included:

                            ‚       Identifying and inventorying all systems that may have a
                                    Year 2000 operational impact.

                            ‚       Analyzing the inventoried systems to assess inherent risks.

                            ‚       Identifying and segmenting mission critical systems and the
                                    assigning of priority levels based on risk.

                                            Page 4
ED OIG Management Information Report ACN A05-90021
Review of Detroit Public Schools’Year 2000 Readiness Plans


                            ‚      Identifying third party vendors whose products are used in
                                   the operation of mission critical systems.

                            ‚      Recommending strategies and solutions to resolve the
                                   identified problems in the systems.

                            Two of the systems, payroll and personnel, were not analyzed
                            because DPS was replacing them with a new Year 2000 compliant
                            software. In addition, the food service application was not
                            analyzed because DPS was also replacing it.

                            In addition to the assessment report, DPS identified 113 system
                            interfaces used for data exchange. DPS designated a Project
                            Manager responsible for coordinating and ensuring all interfaces
                            worked properly. DPS has fully completed, except for contingency
                            planning, the assessment phase as defined in the GAO Year 2000
                            guidance.

Renovation                  During the renovation phase, a school district should convert,
                            replace, or eliminate selected platforms, applications, databases, and
                            utilities as well as modify the appropriate interfaces. Of the five
                            DPS Year 2000 projects, the three mission critical projects have
                            reached the renovation phase. DPS elected to use a process called
                            Windowing to make its systems Year 2000 compliant. Windowing
                            involves the modification of the computer logic so the current two
                            digit date field can still be used into the Year 2000. The program
                            logic is modified to interpret dates based on a date window. DPS
                            can set the date window to interpret some two digit date fields,
                            such as years 50-99, as being in the 20th century and the other
                            years, 0-49, as being in the 21st century.

                            At the time of our field work, DPS informed us the new software
                            for Project 1 had been installed and the vendor was in the process
                            of ensuring the data were complete and in a useable format before
                            testing. This process was scheduled to be completed by February
                            1, 1999. DPS expects this system to be completely operational by
                            July 1, 1999. The software for Project 3 had been installed, but the
                            vendor is still installing the hardware at each of the schools. DPS
                            had hoped to have this system operational by July 1, 1999 but now
                            estimates it will be completed in October 1999.

                            Project 2, converting CIMS and non-CIMS applications to make
                            them Year 2000 compliant, is in varying phases of completeness.
                            Two of the mission critical applications, the student information
                            system and financial system, have been converted. DPS expects to

                                           Page 5
ED OIG Management Information Report ACN A05-90021
Review of Detroit Public Schools’Year 2000 Readiness Plans

                            have all system applications converted and operational by July 1,
                            1999.

                            DPS fully expects to complete the renovation phase for all
                            applications, except the food service hardware, by July 1, 1999.
                            Our review supports DPS’assertion that it will complete the
                            renovation phase as defined in the GAO Year 2000 guidance by the
                            target dates.

Validation                  During the validation phase, a school district should test and verify
                            the performance, functionality, and integration of converted or
                            replaced platforms, applications, databases, and utilities. DPS tests
                            the replaced and converted applications on its computer system.
                            DPS developed a Year 2000 testing methodology and each of the
                            vendors developed or will develop a testing strategy based on the
                            methodology. The contractor provides the testing strategy to DPS
                            for approval prior to testing.

                            The contractor determines the actual degree of testing. The testing
                            strategies need to include unit testing, system testing, and
                            comparative testing. Comparative testing requires DPS to compare
                            baseline data generated by running test scripts under existing
                            production conditions to data generated using replaced or
                            converted applications. Tests results for both 20th and 21st century
                            data are compared to the baseline data to ensure the correctness of
                            data processing.

                            At the time of our field work, DPS had completed testing the
                            converted student information system application. DPS was ready
                            to begin testing the converted financial system application. DPS
                            expected to have all converted or replaced applications, except the
                            food service application, tested and operational by July 1, 1999.
                            Our review supports DPS’assertion that it can complete the
                            validation phase as defined in the GAO Year 2000 guidance by the
                            target date.

Implementation              During the implementation phase, the school district should
                            implement (put back into normal business use) converted or
                            replaced platforms, applications, databases, utilities, and interfaces.
                            For DPS, once programs have been completely assessed, renovated
                            or replaced, tested, and reviewed, they are implemented. The
                            responsible DPS official must sign a readiness statement before the
                            application can be moved back into production. The purpose of
                            each readiness statement is to acknowledge that DPS has fully
                            tested the application in the testing environment established and is
                            ready to put it into production.

                                            Page 6
ED OIG Management Information Report ACN A05-90021
Review of Detroit Public Schools’Year 2000 Readiness Plans

                             Of the three mission critical projects which require testing, DPS has
                             partially completed and implemented only one. However, DPS told
                             us that its target for full implementation of all renovated or replaced
                             programs is July 1, 1999. Our review supports DPS’assertion that
                             it can complete the implementation phase as defined in the GAO
                             Year 2000 guidance for all projects by the target date.

                                         Conclusion

Our review of DPS’s Year 2000 readiness plans indicates that the entity is making satisfactory
progress in its Year 2000 efforts. We believe that DPS’Year 2000 efforts are satisfactory
because the entity exhibits acceptable performance in all key phases of the Year 2000 project
management process. However, if it does not develop a contingency plan, DPS could experience
severe adverse effects in the event of a system failure related to a Year 2000 problem.




                                             Page 7
                                                                                 APPENDIX

Objective, Scope, and Methodology

Our objective was to determine if DPS management has developed a plan to (1) achieve Year
2000 compliance for its computer systems, and (2) monitor the implementation. We also wanted
to ensure that DPS is successfully meeting milestones for each Year 2000 phase. The phases
needed in a Year 2000 readiness plan, as designated by GAO, are awareness, assessment,
renovation, validation, and implementation with ongoing contingency planning. Given the
objectives of our review, we did not assess the adequacy of DPS’overall system of management
controls. We limited our review to controls over DPS’Year 2000 efforts.

We performed on-site field work at DPS, Detroit, Michigan from January 4 through 15, 1999.
For each Year 2000 phase, we reviewed documentation and interviewed managers to determine if
DPS had adequate processes to meet Year 2000 milestones as planned. We did not attempt to
complete work that would provide assurance that DPS’Year 2000 compliance plan will work,
only that it had sufficient controls in place and was meeting or exceeding milestones.

We conducted our review according to government auditing standards applicable to the limited
scope review described.

Criteria Used to Assess Progress

We assessed DPS’Year 2000 compliance efforts by using the guidance provided in GAO’s
September 1997 Year 2000 readiness publication entitled Year 2000 Computing Crisis: An
Assessment Guide. This guide describes five phases (awareness, assessment, renovation,
validation, and implementation), with each phase representing a major Year 2000 program activity
or segment.

During the awareness phase, it is essential that executive management be fully aware of the Year
2000 problem and its potential impact on the enterprise and its customers. We wanted to ensure
that DPS’plan included the following key processes:

!      Define the Year 2000 problem and its potential impact on the enterprise
!      Conduct a Year 2000 awareness campaign
!      Develop a Year 2000 strategy
!      Obtain support from executive management
!      Establish a Year 2000 Steering Committee
!      Identify a vendor to perform a Year 2000 assessment

During the assessment phase, school districts must determine what systems require conversion or
replacement and prioritize those systems accordingly. We wanted to ensure DPS’plan included
the following key processes:

!      Define Year 2000 compliance
!      Focus on core business areas and processes and develop a Year 2000 assessment
       document

                                             Page 1
                                                                                APPENDIX

!      Assess the severity of Year 2000-induced failures
!      Conduct enterprise-wide inventory of information systems for each business area
!      Develop a comprehensive automated system portfolio (inventory)
!      Analyze system portfolio (inventory)
!      Prioritize systems and components to be converted or replaced
!      Establish Year 2000 project teams for business areas and major systems
!      Develop a Year 2000 program plan
!      Identify, prioritize, and mobilize needed resources
!      Develop validation strategies, testing plans, and scripts
!      Define requirements for Year 2000 test facility
!      Identify and acquire Year 2000 tools
!      Address implementation schedule issues
!      Address interface and data exchange issues
!      Initiate the development of contingency plans for mission critical systems
!      Identify Year 2000 vulnerable systems and processes operating outside the information
       resource management area

The renovation phase involves making and documenting software and hardware changes,
developing replacement systems, and decommissioning eliminated systems. We looked for
evidence of DPS’progress on the following key processes:

!      Convert selected applications and related systems components
!      Replace selected applications and related system components
!      Document code and system changes
!      Schedule unit, integration, and system tests
!      Retire selected applications and related system components
!      Communicate changes of information systems to internal and external users
!      Track conversion and replacement process, collect project metrics

During the validation phase, all converted or replaced system components must be thoroughly
validated and tested to uncover errors introduced during the renovation phase, validate Year 2000
compliance, and verify operational readiness. School districts must not only test Year 2000
compliance of individual applications, but also the complex interactions between the scores of
converted or replaced platforms, operating systems, utilities, applications, databases, and
interfaces. We looked for evidence that DPS established the following processes:

!      Develop and document test and compliance plans and schedules
!      Develop strategy for managing the testing of contractor converted or implemented
       systems
!      Implement automated test tools and test scripts
!      Perform unit, integration, and system testing
!      Define, collect, and use test metrics to manage the testing and validation process
!      Initiate acceptance testing




                                             Page 2
                                                                                    APPENDIX

During the implementation phase, school districts must reintegrate Year 2000 compliance
applications and components into the production environment. We looked for evidence that DPS
established the following key processes:

!      Define transition environment and procedures
!      Develop an implementation schedule
!      Resolve data exchange issues and interface concerns
!      Complete acceptance testing
!      Implement contingency plans
!      Develop disaster recovery plans
!      Implement converted and replaced systems

For contingency planning, we determined whether DPS designed its Year 2000 contingency plan
to mitigate the risks associated with the failure to successfully complete renovation, validation, or
implementation of its Year 2000 readiness plan as well as the failure of systems at critical dates.

An overall conclusion on the adequacy of a school district’s Year 2000 efforts means determining
whether the school district’s performance is satisfactory, cautionary, or unsatisfactory.
Performance is satisfactory when project weaknesses are minor in nature and can be readily
corrected within the existing project management framework. Satisfactory progress further
indicates the school district’s remediation progress to date meets or nearly meets expectations laid
out in its Year 2000 project plan. Senior management and the Year 2000 team recognize and
understand Year 2000 risk, are active in overseeing the school district’s corrective efforts, and
have ensured that the necessary resources are available to address this risk area. Performance is
cautionary when project weaknesses are evident or the remediation progress to date is behind
schedule as laid out in the school district’s Year 2000 project plan. Cautionary efforts are further
identified when senior management or the Year 2000 team is not fully aware of the status of Year
2000 corrective efforts, may not have committed sufficient financial or human resources to
address this risk, or may not fully understand Year 2000 implications. Year 2000 efforts are
unsatisfactory when project weaknesses are serious in nature and are not easily corrected within
the existing project management framework. In addition to the cautionary efforts described
above, unsatisfactory performance is indicated when management or the Year 2000 team
commitment is limited or their oversight activities are not evident.




                                               Page 3
                          REPORT DISTRIBUTION LIST
                          CONTROL NUMBER A05-90021

Action Official                                               No. of Copies
Judith Johnson
Acting Assistant Secretary
for Elementary and Secondary Education
U. S. Department of Education

Auditee
Dr. Eddie L. Green
General Superintendent of Schools
Detroit Public Schools                                                           1

Other ED Officials
Y2K Coordinator
Office of the Chief Financial and Chief Information Officer                      1
Director, Office of Public Affairs                                               1

Secretary's Regional Representative, Region V                                    1

ED-OIG Officials
Inspector General (Acting)                                         Electronic Copy
Deputy Inspector General (Acting)                                  Electronic Copy
Assistant Inspector General for Audit (Acting)                     Electronic Copy
Assistant Inspector General for Investigations (Acting)            Electronic Copy
Assistant Inspectors General for Operations                    Electronic Copy (2)
Director, Planning, Analysis, and Management Services              Electronic Copy

Regional Inspector General for Investigation                       Electronic Copy

Regional Inspectors General for Audit
      Atlanta, Dallas, Kansas City, New York, Philadelphia,
      Sacramento, and Washington
                                                              Electronic Copies (7)

Region V Audit Office                                                            2
